 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

      NATIONAL INSTITUTE OF JUSTICE

   COOPERATIVE AGREEMENT AWARDED TO

EPSILON LAMBDA ELECTRONICS CORPORATION

         WEST CHICAGO, ILLINOIS





        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



        Audit Report GR-50-12-001

              December 2011

                 OFFICE OF JUSTICE PROGRAMS

                NATIONAL INSTITUTE OF JUSTICE

             COOPERATIVE AGREEMENT AWARDED TO

          EPSILON LAMBDA ELECTRONICS CORPORATION

                   WEST CHICAGO, ILLINOIS


                          EXECUTIVE SUMMARY


       The Office of the Inspector General, Audit Division, has
completed an audit of an Office of Justice Programs (OJP), National
Institute of Justice (NIJ), cooperative agreement awarded to Epsilon
Lambda Electronics Corporation (Epsilon). 1 Epsilon is located in
West Chicago, Illinois, about 30 miles west of Chicago, Illinois, and is a
privately held, for-profit corporation. Epsilon was awarded $963,580
under grant number 2007-RG-CX-K181 for a research and
development project. The purpose of the project was to research and
develop a sensor and surveillance technology for detecting concealed
weapons at a safe distance and to collect radar images of a wide range
of threat and benign objects. With funding from the agreement,
Epsilon planned to demonstrate a compact, low-cost prototype
concealed weapons detection sensor.

      The objective of our audit was to review performance in the
following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel costs; (4) budget
management and control; (5) matching costs; (6) accountable
property; (7) indirect costs; (8) program income; (9) financial status
and progress reports, (10) grant requirements; (11) program
performance and accomplishments; and (12) monitoring of sub-
grantees and contractors. We determined that matching costs,
accountable property, indirect costs, program income, and monitoring
of sub-grantees were not applicable to this grant.

       As of May 19, 2010, the grantee had drawn down the entire
award amount of $963,580 in grant funds and had recorded costs
totaling $968,037 on its separately maintained spreadsheet for
requesting reimbursement. We examined Epsilon’s accounting
records, financial status and progress reports, and operating policies
and procedures. In total, we found $178,917 in questioned costs and



      1
        We use the term “cooperative agreement” interchangeably with “grant”
throughout this report.
identified internal control, accounting, reporting, and contractor
monitoring deficiencies. Specifically, we found:

      •	    Epsilon was not in compliance with the requirement to
            have a financial and compliance audit conducted for fiscal
            years 2008 and 2009. The most recent audit was
            conducted for the fiscal year ended December 31, 1998.

      •	    Although Epsilon has written procurement, receiving, and
            payroll policies, personnel stated that the policies were not
            being followed because they were no longer relevant to
            Epsilon’s operations and that there was not a current,
            formal process for purchasing and receiving. At the audit
            close out meeting, Epsilon’s President informed us that
            Epsilon has a dedicated purchasing agent and that there is
            a formal procurement process. In addition, we identified a
            lack of adequate segregation of financial duties. Further,
            Epsilon was not using its official accounting system to
            record all grant-related expenditures, and all of Epsilon’s
            financial information was maintained on a stand-alone
            laptop computer, which was typically kept at the
            Comptroller’s home.

      •	    Epsilon was unable to fully support all grant-related costs.
            Specifically, Epsilon submitted drawdown requests that
            included $2,230 in unidentified costs for which Epsilon
            could not provide supporting documentation. Moreover,
            Epsilon was reimbursed $622 for non-personnel and
            non-contract expenditures for which Epsilon could not
            provide supporting documentation. Therefore, we are
            questioning $2,852 in unsupported costs.

      •	    Epsilon was reimbursed for personnel costs related to
            employees who were not included in the approved budget
            as well as costs in excess of approved budget amounts.
            Based upon these deficiencies, we are questioning
            $124,577 in unallowable direct labor and fringe benefit
            costs reimbursed by the grant.

      •	    Epsilon was reimbursed $5,805 for unsupported contract
            expenditures. In addition, Epsilon was reimbursed
            $45,683 for services provided by contractors not included
            in the approved budget or for services charged to the
            grant at an overstated rate. Based upon these


                                  - ii ­
           deficiencies, we are questioning $51,488 of the contract
           expenditures reimbursed by the grant.

     •	    Four of the ten required financial status reports were
           submitted between 2 and 40 days late. Additionally, the
           reports were not prepared from the accounting records but
           instead from the drawdown requests. As a result, the
           financial status reports do not match expenditures as
           recorded in Epsilon’s official accounting records.

     •	    Epsilon did not maintain adequate documentation to assess
           a primary contractor’s performance under the grant.

     •	    Although an NIJ official reported that Epsilon made
           progress in the ongoing research of millimeter wave-based
           sensors, Epsilon did not accomplish the objectives of the
           grant, which were to develop and demonstrate a radar
           sensor prototype and to collect signatures of a wide range
           of threat and benign objects. Instead, Epsilon changed the
           design approach and only provided NIJ with a design for a
           sensor. We did not locate a Grant Adjustment Notice
           approving a change to the project as required by the terms
           and conditions of the grant.

     Our report contains eight recommendations to address the
preceding issues, which are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I of the report.




                                - iii ­
                                     TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1

     Background.......................................................................... 2

     Our Audit Approach............................................................... 2



FINDINGS AND RECOMMENDATIONS........................................ 4

     Accounting and Internal Controls ............................................ 4

     Grant Drawdowns ................................................................. 7

     Grant Expenditures ............................................................... 8

     Budget Management and Control ...........................................15

     Grant Reporting ...................................................................15

     Compliance with Cooperative Agreement Requirements ............17

     Program Performance and Accomplishments ...........................18

     Monitoring Contractors .........................................................20

     Views of Responsible Officials ................................................21

     Recommendations ...............................................................21



APPENDIX I:         OBJECTIVES, SCOPE, AND METHODOLOGY...... 23

APPENDIX II:         SCHEDULE OF DOLLAR-RELATED FINDINGS ... 25

APPENDIX III: AUDITEE RESPONSE ...................................... 26

APPENDIX IV:         OFFICE OF JUSTICE PROGRAMS RESPONSE ... 29

APPENDIX V:          OFFICE OF THE INSPECTOR GENERAL

                       ANALYSIS AND SUMMARY OF ACTIONS

                       NECESSARY TO CLOSE THE REPORT .......... 32





                                             - 1 –

                                  INTRODUCTION

      The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of an Office of Justice Programs (OJP),
National Institute of Justice (NIJ) cooperative agreement awarded to Epsilon
Lambda Electronics Corporation (Epsilon), located in West Chicago, Illinois.
Epsilon was awarded $963,580 (including one supplement) under grant
number 2007-RG-CX-K181 to fund the research and development of a
sensor and surveillance technology for detecting concealed weapons at a
safe distance. 2 Specifically, the objectives were to develop and demonstrate
a radar sensor prototype with anti-terrorism technology capable of remotely
detecting suicide bomb belts and to collect extensive radar images of a wide
range of threat and benign objects.

     As shown in the following table, Epsilon was awarded a total of
$963,580 to research and develop this project.

           TABLE 1. OFFICE OF JUSTICE PROGRAMS GRANT TO

             EPSILON LAMBDA ELECTRONICS CORPORATION

                      PROJECT         PROJECT       AWARD
 AWARD NUMBER                                                           OBJECTIVE
                     START DATE       END DATE      AMOUNT
                                                               To demonstrate system
                                                               technology in a test bed
                                                               environment and collect
2007-RG-CX-K181      10/01/2007      01/31/2009     $496,972
                                                               extensive radar images of a
                                                               wide range of threat and
                                                               benign objects.
                                                               To implement a sensor
                                                               prototype that incorporates
                                                               threat assessment
Supplement           10/01/2007      03/31/2010      466,608
                                                               algorithms for the reliable
                                                               identification of threat
                                                               objects.
                                           Total: $963,580
Source: Office of Justice Programs

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the agreement were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the agreement, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;

       2
          We use the term “cooperative agreement” interchangeably with “grant” throughout
this report.



                                          - 1 –

(3) grant expenditures, including personnel costs; (4) budget management
and control; (5) matching costs; (6) accountable property; (7) indirect
costs; (8) program income; (9) financial status and progress reports;
(10) grant requirements; (11) program performance and accomplishments;
and (12) monitoring of sub-grantees and contractors. We determined that
matching costs, accountable property, indirect costs, program income, and
monitoring of sub-grantees were not applicable to this grant.

Background

      Since 1984, OJP has provided federal leadership in developing the
nation's capacity to prevent and control crime, improve the criminal and
juvenile justice systems, increase knowledge about crime and related issues,
and assist crime victims. NIJ was created in 1969 and is the research,
development, and evaluation agency of DOJ. NIJ’s overall goals are to:
(1) foster science-based criminal justice practice, (2) translate knowledge to
practice, (3) advance technology, (4) work across disciplines, and (5) adopt
a global perspective.

       Epsilon is an engineering research and development company located
in West Chicago, Illinois, about 30 miles west of Chicago, Illinois. According
to its website, Epsilon has been working in the millimeter and microwave
industry for over 36 years, focusing on millimeter wave integrated circuit
technology, subsystems, and systems. Further, Epsilon’s product and
technology applications are for low-cost, short-range radar and wideband
communication systems. Epsilon is a privately held, for-profit corporation
whose President is the majority stockholder and also the grant Project
Director. Epsilon employs five staff members (three engineers, a Production
Manager, and a Comptroller).

Our Audit Approach

       We tested compliance with what we consider to be the most important
conditions of the agreement. Unless otherwise stated in our report, the
criteria we audit against are contained in the OJP Financial Guide, the Code
of Federal Regulations, Office of Management and Budget (OMB) Circulars,
and the award documents. We tested Epsilon’s:

      •	    Accounting and Internal Controls to determine whether the
            grantee had sufficient accounting and internal controls in place
            for the processing and payment of funds and controls were
            adequate to safeguard grant funds and ensure compliance with
            the terms and conditions of the grant;



                                    - 2 –

     •	    Grant Drawdowns to determine whether grant drawdowns
           were adequately supported and if the grantee was managing
           grant receipts in accordance with federal requirements;

     •	    Grant Expenditures to determine the accuracy and allowability
           of costs charged to the grant;

     •	    Budget Management and Control to examine the amounts
           budgeted and the actual costs for each approved cost category
           and determine if the grantee deviated from the approved
           budget, and if so, if the grantee received the necessary
           approval;

     •	    Financial Status Reports and Progress Reports to determine
           whether the required reports were submitted on time and
           accurately reflected grant activity;

     •	    Accomplishment of Grant Requirements and Objectives to
           determine if the grantee met or is capable of meeting the grant’s
           objectives and whether the grantee collected data and developed
           performance measures to assess accomplishment of the
           intended objectives; and

     •	    Monitoring of Contractors to determine if the grantee
           adequately monitored the work of contractors to ensure the work
           was completed as agreed upon in the contracts.

      We also performed limited work and confirmed that Epsilon was not
required to contribute any local matching funds, did not receive
reimbursement for accountable property or indirect costs, did not generate
any program income, and did not sub-award DOJ grant funds to sub-
grantees. Therefore, we did not perform testing in these areas.




                                   - 3 –

               FINDINGS AND RECOMMENDATIONS

      We determined that Epsilon researched the development of a
      concealed weapons detector. However, we found that Epsilon
      did not fully accomplish the objective of the cooperative
      agreement, which was to develop a prototype concealed
      weapons detector. Additionally, we identified weaknesses in
      Epsilon’s internal controls as well as accounting and reporting
      deficiencies. For instance, we found insufficient documentation
      to support personnel, contract, non-personnel, and non-contract
      expenditures reimbursed by the grant. We found Epsilon
      charged the grant for employees who were not included in the
      approved budget and at higher salary and fringe benefit rates
      than included in the approved budget. We also found that
      Epsilon requested and received reimbursement for personnel
      expenditures in excess of maximum allowable amounts included
      in the approved budget. Further, the grantee’s financial status
      reports were not based upon grant accounting records, and 4 of
      the 10 required financial status reports were filed late. As a
      result, we questioned $178,917 in unsupported or unallowable
      expenditures.

       We performed audit work at Epsilon in West Chicago, Illinois, where
we obtained an understanding of the accounting system and reviewed a
sample of grant expenditures. We reviewed the criteria governing grant
activities, including the OJP Financial Guide, relevant OMB Circulars, and the
Code of Federal Regulations. In addition, we reviewed grant documents,
including the application, award, budgets, and financial status and progress
reports. We also interviewed key personnel at Epsilon.

Accounting and Internal Controls

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system
should ensure, among other things, the identification and accounting for
receipt and disposition of all funds, funds applied to each budget category
included in the approved award, expenditures governed by any special and
general provisions, and non-federal matching contributions.

     We interviewed key Epsilon personnel, including the President, Chief
Engineer, Comptroller, and Production Manager, regarding Epsilon’s financial
management system, record keeping practices, and methods for ensuring
adherence to the terms and conditions of the award. We also reviewed


                                    - 4 –

Epsilon’s policies, procedures, and accounting records to assess Epsilon’s risk
of non-compliance with laws, regulations, guidelines, and terms and
conditions of the award.

Financial Management System

      The OJP Financial Guide requires grantees to establish and maintain
a system of accounting and internal controls that adequately identifies
and classifies grant costs. The system must include controls to ensure
that funds and other resources are used optimally and expenditures of
funds are in conformance with the general and special conditions
applicable to the recipient. Further, the OJP Financial Guide states that
grantees should establish and maintain program accounts that will
enable, on an individual basis, the separate identification and accounting
of the receipt and disposition of all funds and the application of all funds
to each budget category included within the approved award.

       We did not test the overall financial management system for Epsilon as
a whole, but conducted a limited review and performed testing in areas
related to the NIJ award. We also interviewed staff and management to
further assess risk. The grantee has a Quality Control Manual for all aspects
of internal controls. However, based on our interviews with key Epsilon
personnel, the procedures and processes included in the manual were no
longer current and were not being followed by Epsilon employees.
Specifically, during fieldwork Epsilon personnel stated that there is no
current, formal process for purchasing or receiving. According to the
Comptroller, the organization has evolved from a manufacturing company to
primarily a research and development organization, and the number of
employees has also decreased over time. As a result, the procedures
established in the Quality Control Manual have become less relevant to
Epsilon’s operations. At the audit close out meeting, Epsilon’s President
advised that Epsilon has an employee who is the dedicated purchasing agent
and that there is a formal procurement process.

      Our review of Epsilon’s financial management system also indicated
that the internal controls over the accounting system were weak due to a
lack of segregation of duties. Specifically, the Comptroller performs all
accounting functions, including recording orders, receipts, and
disbursements. The Production Manager explained that due to the very
small size of the company, every employee knows what every other
employee is doing. Therefore, the Comptroller is aware of all the purchases
made by other employees and would also know if an order was not received.
In the same manner, the Comptroller would know if the items or services
had been received prior to paying an invoice.


                                     - 5 –

      In addition, the Comptroller told us that Epsilon uses a commercial off-
the-shelf business accounting software for maintaining its accounting
records. According to the Comptroller, the software is installed on a stand­
alone laptop computer, and the data is backed up to a flash drive every
3 months. Moreover, the laptop computer is generally stored in a locked
desk at the Comptroller’s home because the Comptroller typically works
from home. The Comptroller also stated that the laptop computer only
contains the basic software password; there is no additional security
password.

      We also found that the Comptroller was not aware of the method to
record certain transactions by job code using Epsilon’s accounting software.
Instead, the Comptroller manually calculated the allocation of fringe benefits
and rent and utilities related to the award and recorded that information on
a separate record of expenditures. As a result, Epsilon’s general ledger does
not show a complete, separate accounting of all grant-related expenses.

     Given the issues identified with Epsilon’s financial management
system, we believe that Epsilon should strengthen its internal controls.

Audit

      According to the special conditions of the agreement, the OJP Financial
Guide, and OMB Circular A-133, commercial, for-profit organizations that
expend $500,000 or more in federal funds in the organization’s fiscal year
are required to have independent financial and compliance audits conducted,
usually every year. As shown in the following table, Epsilon’s expenditures
of federal funds exceeded $500,000 in fiscal years (FY) 2008 and 2009. 3

             TABLE 2. EPSILON’S EXPENDITURES OF FEDERAL FUNDS
                      FISCAL YEARS 2007 THROUGH 2009
                   Fiscal Year               2007            2008      2009
            Total Federal Expenditures   $247,447        $912,983     $863,602
            Source: Epsilon Lambda Electronics Corporation.

      Although Epsilon’s expenditures of federal funds exceeded $500,000
for FYs 2008 and 2009, the most recent audit of Epsilon’s financial
statements was conducted for FY 1998.

      In addition to the issues discussed above, we noted several other
internal control weaknesses, which are discussed in the Grant Drawdowns,

        3
            Epsilon’s fiscal year is from January 1 to December 31.



                                              - 6 –

Grant Expenditures, Grant Reporting, and Monitoring Contractors sections of
this report. The weaknesses include unsupported drawdowns as a result of
not recording all expenditures in its general ledger, receiving reimbursement
for personnel costs in excess of maximum costs allowed in the approved
budget and for employees not listed in the approved budget and at higher
rates than approved in the budget, filing reports in an untimely manner, and
a lack of documentation to support the grantee’s monitoring of contractor
performance. We believe that Epsilon’s current internal control environment
needs significant improvement. As a result, we believe that OJP should
ensure that Epsilon implements proper internal controls prior to awarding
any additional funding to this grantee.

Grant Drawdowns

      We reviewed Epsilon’s process for requesting OJP reimbursement for
grant-related costs to ensure that reimbursement requests were supported
adequately by official accounting records and were in accordance with
federal requirements. Epsilon’s Comptroller stated that drawdowns were
based on actual expenditures and that the drawdown requests were
prepared on a monthly or semi-monthly basis depending on Epsilon’s cash
requirements and when there was time available to prepare the drawdown
requests. However, through our analysis of Epsilon’s general ledger and
grant drawdowns, we determined that Epsilon’s reimbursement requests
were not based on costs recorded in its general ledger. Instead, Epsilon
requested reimbursement based upon a separate spreadsheet maintained by
the Comptroller. As mentioned, the Comptroller manually calculated grant-
related fringe benefits and rent and utilities costs and recorded those
amounts on a separate record of expenditures because the Comptroller was
uncertain how to record and allocate these expenditures using Epsilon’s
accounting software. The Comptroller also included all other grant-related
costs on this separate record of expenditures, which was then used for
submitting reimbursement requests.

      We used the Comptroller’s spreadsheets to compare grant-related
expenditures to the actual drawdown amounts. As shown in the following
table, the grantee had drawn down $963,580 (the total award amount),
although the Comptroller’s spreadsheets totaled $968,037 in grant-related
expenses. Through our comparison, we identified errors in Epsilon’s
drawdown requests. Specifically, on two occasions Epsilon computed its
grant-related expenditures using the wrong time period and as a result,
submitted its reimbursement request for the incorrect amount. Further, on
one occasion, Epsilon inadvertently failed to include some grant-related
expenditures in the reimbursement request, while on another occasion
Epsilon requested reimbursement for a non-grant related cost. We found,


                                    - 7 –

however, that Epsilon adjusted future drawdown requests to correct
these errors.

 TABLE 3. COMPARISON OF DRAWDOWNS TO EPSILON’S RECORD OF
                      EXPENDITURES
                                   GRANT
                                                                               CUMULATIVE
                               EXPENDITURES                    CUMULATIVE
   DATE OF                                     CUMULATIVE                     EXPENDITURES
               AMOUNT DRAWN   PER ACCOUNTING                  EXPENDITURES
DRAWDOWN PER                                 DRAWDOWNS PER                        LESS
               DOWN PER OJP     RECORDS FOR                   PER EPSILON’S
    OJP                                           OJP                          CUMULATIVE
                                DRAWDOWN                        RECORDS
                                                                              DRAWDOWNS
                                  PERIOD
  12/21/2007   $39,310.36        $39,310.36  $39,310.36        $39,310.36          $0.00
  01/07/2008     7,395.84          7,395.84   46,706.20         46,706.20           0.00
  01/15/2008    10,528.44         10,528.44   57,234.64         57,234.64           0.00
  02/01/2008    10,680.88         10,680.88   67,915.52         67,915.51          (0.01)
  03/03/2008    24,617.12         24,617.12   92,532.64         92,532.64           0.00
  04/01/2008    16,047.92         16,047.92  108,580.56        108,580.56           0.00
  04/15/2008    34,934.38         24,951.94  143,514.94        133,532.50      (9,982.44)
  05/15/2008    41,112.88         41,112.88  184,627.82        174,645.38      (9,982.44)
  06/16/2008    52,483.54         62,465.98  237,111.36        237,111.36           0.00
  07/15/2008    56,562.25         56,562.25  293,673.61        293,673.61           0.00
  08/20/2008    49,966.02         49,966.02  343,639.63        343,639.64           0.01
  09/23/2008    99,286.51         99,286.51  442,926.14        442,926.14           0.00
  10/16/2008    29,572.11         32,898.51  472,498.25        475,824.65       3,326.40
  12/22/2008    21,000.00         99,884.35  493,498.25        575,709.00      82,210.75
  01/06/2009    85,685.38          5,195.29  579,183.63        580,904.29       1,720.66
  01/14/2009    (3,473.75)             0.00  575,709.88        580,904.29       5,194.41
  02/19/2009    34,786.87         29,591.58  610,496.75        610,495.87          (0.88)
  04/01/2009    71,085.78         71,085.78  681,582.53        681,581.65          (0.88)
  05/01/2009    40,265.28         29,673.42  721,847.81        711,255.07     (10,592.74)
  06/08/2009    48,939.27         31,431.93  770,787.08        742,687.00     (28,100.08)
  07/16/2009    38,393.31         66,492.51  809,180.39        809,179.51           (.88)
  09/01/2009    76,859.69         76,859.69  886,040.08        886,039.20           (.88)
  10/16/2009    30,786.46         30,786.46  916,826.54        916,825.66           (.88)
  12/01/2009     6,894.46         32,106.36  923,721.00        948,932.02      25,211.02
  01/25/2010    25,211.90          7,567.87  948,932.90        956,499.89       7,566.99
  05/19/2010    14,647.10         11,537.21  963,580.00       $968,037.10       4,457.10
       TOTAL $963,580.00       $968,037.10 $963,580.00       $968,037.10      $4,457.10
Source: Office of Justice Programs and Epsilon Lambda Electronics Corporation.

      As a result of the discrepancies discussed above, we performed
additional analysis of Epsilon’s drawdown requests. Through our testing, we
found $2,230 in unsupported drawdowns for which Epsilon received
reimbursement. The Comptroller did not provide support for these
drawdown requests and was uncertain as to what the costs entailed.
Therefore, we are questioning the $2,230 as unsupported costs.

Grant Expenditures

        The OJP Financial Guide serves as a primary manual to assist grantees
in fulfilling their fiduciary responsibility to safeguard grant funds and ensure


                                           - 8 –

funds are used for the purposes for which they were awarded. It also serves
as a day-to-day management tool for award recipients in administering
grant programs.

      To determine the accuracy and allowability of costs charged to the
grant, we reviewed a sample of personnel, contractor, and other direct
expenditures. According to Epsilon’s records, total grant-related
expenditures were $968,037, and Epsilon had been reimbursed for $963,580
(the entire amount of the award). 4 We tested $60,753 of personnel costs
from 6 pay periods and 42 non-personnel expenditures totaling $225,397.

   TABLE 4. EPSILON’S APPROVED GRANT BUDGET AMOUNTS AND

                    DESCRIPTION OF COSTS

                             APPROVED
     COST CATEGORY                             DESCRIPTION OF PLANNED EXPENDITURES
                              BUDGET
                                           Epsilon staff involved in the concealed weapons
 Personnel                   $327,244
                                           detector project
                                           Epsilon staff involved in the concealed weapons
 Fringe Benefits                52,628
                                           detector project
                                           Epsilon staff members attending kick-off
 Travel                          7,012
                                           meeting and final progress report meeting
                                           Commercial off-the-shelf items and raw
 Supplies                       74,954
                                           materials for fabrication of radar
                                           Signal processing expertise and capability to
 Contract/Consultant           467,957     bring the technology into a usable platform for
                                           local law enforcement applications
 Other                          33,785     Rent, utilities, and equipment calibration

 Equipment                            0    None planned

 Construction                         0    None planned

 Indirect Costs                       0    None planned
 FEDERAL FUNDS              $963,580
 LOCAL MATCH                        $0
 TOTAL PROJECT COST         $963,580
Source: Office of Justice Programs and Epsilon Lambda Electronics Corporation.



         4
          After submitting its final request for reimbursement, Epsilon determined that the
total project costs incurred were $1,039,888. The total costs incurred were based on actual
salary rates paid rather than approved budget salary rates and included salary expenditures
in excess of maximum allowable salary expenditures. Epsilon also estimated grant-related
fringe benefit and rent expenditures based upon certain percentages of total salary
expenditures. Further, the $1,039,888 amount included subcontractor, component, and
travel expenditures for which Epsilon did not request or receive reimbursement from OJP.



                                           - 9 –

Personnel Expenditures

      To determine the accuracy and allowability of personnel costs charged
to the award, we selected and reviewed a sample of six pay periods during
the award period. We compared the names, positions, and salaries included
in the OJP-approved budgets to the employees who were paid with grant
funds. We also tested the accuracy of the supporting time records and
reports and recalculated the allocation of salary costs charged to the grant
to verify whether the costs were computed correctly, properly authorized,
accurately recorded, and properly allocated to the grant. We tested $53,919
of the total $412,721 in salary costs reimbursed by OJP.

        We found that Epsilon requested and received reimbursement for
employees who were not included in the approved budget and for costs
calculated at salary rates in excess of the rates included in the approved
budget. Based upon the issues identified, we performed further analysis of
Epsilon’s requests for reimbursement of salary expenditures beyond the
initially selected six pay periods. From this analysis, we found that during
Phase I of the project, Epsilon had requested and received reimbursement
for three employees’ salary costs that were calculated at salary rates greater
than the rates included in the approved budget. For example, the OJP-
approved budget stated that the Comptroller’s allowable salary rate was
$80,000 during Phase I of the project. However, during the time period of
February 25, 2008, through November 10, 2008, Epsilon charged the grant
for the Comptroller’s time spent on grant-related activities using a salary
rate of $108,000. As a result, Epsilon was reimbursed $4,833 more than
allowed by the approved budget. In addition to using a higher salary rate
than was approved when computing the grant-related salary costs, we found
that during Phase I, Epsilon requested and received reimbursement for
salary costs of four employees that exceeded the maximum salary costs
included in the approved budget. For example, the OJP-approved budget
stated that Epsilon was allowed to charge 45 percent of the Principal
Investigator’s $150,000 salary (or $67,500) to the grant. However, Epsilon
requested and received $86,383 in reimbursement for the Principal
Investigator’s salary during Phase I of the project, which was $18,883 more
than allowed by the approved budget. We also determined that during
Phase I, Epsilon had requested and received reimbursement for the salary
costs of an engineer who was not specified in the approved budget.

      During our analysis of salary costs incurred during Phase II of the
project, we identified similar issues to what we found during our examination
of Phase I salary costs. Specifically, we found that Epsilon had requested
and received reimbursement for one employee’s salary costs that was
calculated at a salary rate greater than the rate included in the approved


                                    - 10 –

budget. We also determined that during Phase II of the project, Epsilon
requested and received reimbursement for three employees’ salary costs
that exceeded the maximum salary costs included in the approved budget.
Further, we determined that Epsilon had requested and received
reimbursement for the salary costs of two engineers who were not specified
in the approved budget. In total, we found that Epsilon was reimbursed
$114,579 for unallowable salary expenditures as summarized in the
following table.

   TABLE 5. TOTAL REIMBURSED PERSONNEL COSTS IN EXCESS OF
  ACTUAL ALLOWABLE AMOUNTS BY PROJECT YEAR AND POSITION 5

                                                            6  Reimbursement for     Reimbursements
              Position                   Allowable Salary      Salary Expenditures    Over Allowable
                                            First Project Year (Phase I)
Principal Investigator                      $67,500.00             $86,383.09          $18,883.09
Chief Engineer                                48,000.00             56,783.21            8,783.21
Manufacturing Technician                      26,250.00             45,941.47           19,691.47
Quality Control and Technical Writing         19,035.05             23,867.81            4,832.76
Engineer                                              0              4,297.31            4,297.31
              First Project Year Total    $160,785.05            $217,272.88          $56,487.82
                                          Second Project Year (Phase II)
Principal Investigator                         47,813.02             47,813.02                  0
Chief Engineer                                 50,000.00             65,624.14          15,624.14
Manufacturing Technician                       24,192.00             50,685.94          26,493.94
Quality Control and Technical Writing           7,490.20              7,490.20                  0
Engineer                                        7,862.40             16,661.89           8,799.49
Engineer                                               0              5,232.56           5,232.56
Engineer                                               0              1,940.82           1,940.82
            Second Project Year Total      $137,357.62            $195,448.56         $58,090.94
                               TOTAL       $298,142.67            $412,721.43        $114,578.76
Source: Office of Justice Programs and Epsilon Lambda Electronics Corporation

       We identified similar concerns during our analysis of the fringe benefits
charged to the grant. We tested $6,834 of the total $56,973 in fringe
benefit costs reimbursed by OJP. We considered whether the fringe benefit
costs were consistent with charges for other employees, included in the
approved budgets, and computed correctly using the approved fringe benefit
rate and appropriate formula. We found that during Phase I of the project,
Epsilon had requested and received reimbursement for fringe benefit costs
for one employee who was not included in the approved budget. We also
found that during Phase I, Epsilon requested and received reimbursement
for fringe benefit costs of two employees that exceeded the maximum fringe

        5
         The sum of the individual salary amounts by position for each project year may be
greater or less than the totals shown due to rounding.
        6
         Allowable salary amounts were calculated based on the actual percent of time
employees worked on the concealed weapon detector project and the salary rates included in
the approved budget.


                                                 - 11 –

benefit costs included in the approved budget. During the second phase of
the project, Epsilon requested and received reimbursement for fringe benefit
costs for two employees who were not included in the approved budget.
Further, during the second year of the project, Epsilon requested and
received reimbursement for three employees at a higher workmen's
compensation rate than was stipulated in the approved budget. We also
found that Epsilon had requested and received reimbursement for two
employees at health insurance rates that were less than the health insurance
rates included in the approved budget.

      Through our analysis, we found that Epsilon had requested and
received reimbursement for $9,998 in unallowable fringe benefit
expenditures as summarized in the following table.

    TABLE 6. TOTAL REIMBURSED FRINGE BENEFIT COSTS IN EXCESS OF

     ACTUAL ALLOWABLE AMOUNTS BY PROJECT YEAR AND POSITION 7


                                         Allowable Fringe     Reimbursement for   Reimbursements
              Position                                8         Fringe Benefit     Over Allowable
                                             Benefits            Expenditures         Amount
                                                First Project Year
Principal Investigator                      $8,133.75              $8,439.63           $305.88
Chief Engineer                               8,292.60               7,989.40          (303.20)
Manufacturing Technician                     5,613.00               7,130.12          1,517.12
Quality Control and Technical Writing        3,047.62               1,895.10        (1,152.52)
Engineer                                             0                403.79            403.79
Not Individually Reimbursed 9                                       7,695.00          7,695.00
              First Project Year Total    $25,086.97            $33,553.03          $8,466.06
                                              Second Project Year
Principal Investigator                        5,780.02               4,671.33        (1,108.68)
Chief Engineer                                9,174.00               9,233.32             59.32
Manufacturing Technician                      5,112.16               7,866.46          2,754.30
Quality Control and Technical Writing         1,821.35                 594.72        (1,226.63)
Engineer                                              0                353.23            353.23
Engineer                                              0                511.22            511.22
Engineer                                              0                189.62            189.62
            Second Project Year Total      $21,887.52             $23,419.90         $1,532.38
                                TOTAL      $46,974.49             $56,972.93         $9,998.43
Source: Office of Justice Programs and Epsilon Lambda Electronics Corporation


        7
        The sum of the individual fringe benefit amounts by position for each project year
may be greater or less than the totals shown due to rounding.
        8
          Allowable fringe benefit amounts were calculated based on the actual percent of
time employees worked on the concealed weapon detector project and the fringe benefit rates
included in the approved budget.
        9
          For the reimbursement period ending June 10, 2008, the comptroller requested
reimbursement for the total estimated first year unemployment insurance expenditures. We
considered the allowable unemployment insurance expenditures for each reimbursement
period in our determination of reimbursements over allowable amounts. As a result, we did
not include a separate amount under the Allowable Fringe Benefits column for this line item.


                                                 - 12 –

      In sum, we are questioning $124,577 in personnel costs. This consists
of $114,579 in salary expenditures and $9,998 in fringe benefits
expenditures that were deemed unallowable as detailed above.

Contract Expenditures

      We judgmentally selected 24 transactions recorded in Epsilon’s general
ledger as contract expenditures associated with the project to determine
whether the costs were accurate, supported, allowable, and allocable to the
grant under federal rules, regulations, and guidelines. The selected
transactions totaled $133,925 of the total $416,381 in grant-related contract
expenditures. However, Epsilon only requested and received reimbursement
for 13 of the 24 transactions; the 13 transactions totaled $102,803. Based
upon our testing, we are questioning $51,488 in unsupported and
unallowable costs as follows:

    •	 $4,000 in unsupported costs for contract expenditures that were
       supported only by memoranda signed by Epsilon’s President with
       instructions to process the checks and to charge the expenditures to
       the grant. 10 Epsilon was unable to provide: (1) a copy of a contract,
       purchase order, or agreement that identified and authorized the
       grant-related services; (2) supporting documentation that identified
       what grant-related services were provided; (3) a copy of an invoice
       from the contractor; or (4) evidence that the receipt of the grant-
       related services had been verified.

    •	 $1,805 in unsupported costs for a contract expenditure that was
       supported only by a handwritten note. The note included check
       numbers and amounts, as well as cumulative totals and amounts that
       corresponded to entries in the general ledger, along with an
       annotation "originals lost." Epsilon could not provide: (1) a copy of a
       contract, purchase order, or agreement that identified and authorized
       the grant-related services; (2) supporting documentation that
       identified what grant-related services were provided; (3) a copy of an
       invoice from the contractor; or (4) evidence that the receipt of grant-
       related services had been verified. Therefore, we determined this
       transaction was not properly authorized and supported.



       10
          We identified three transactions totaling $6,000 for which the costs were only
supported by simple memoranda. However, Epsilon did not request or receive
reimbursement for one of the transactions totaling $2,000. Therefore, we are only
questioning the $4,000 that was reimbursed.



                                           - 13 –

    •	 $37,710 in unallowable costs for contract expenditures that were not
       included in the grant-approved budget. 11 The grant-approved budget
       authorized Epsilon to procure contract services and specifically named
       contractors that would be utilized. However, three of the six
       contractors included in our sample were not identified in the grant-
       approved budget.

      Based on these issues, we conducted further testing of Epsilon’s
contract expenditures and found that Epsilon received cost savings that it
did not pass on to OJP. Epsilon entered into a research services agreement
with a contractor that would assist Epsilon on multiple projects, not just the
OJP grant-funded project. Epsilon agreed to pay the contractor $49,139 and
estimated the contractor would provide 1,300 hours of service on all
projects. Based upon our review of the contractor’s timesheets, we found
that the contractor actually worked a total of 1,952 hours. Although the
contractor worked more hours than originally estimated, Epsilon only paid
the contractor the original cost of the agreement – $49,139. According to
the contractor’s timesheets, the contractor spent 1,220 of the total
1,952 hours (or 62.5 percent) on the OJP grant-funded project. However,
Epsilon requested and received reimbursement for $38,685, which equated
to 79 percent of the total cost of the agreement. We believe that Epsilon
should have only charged the grant $30,712, which was based upon the
original cost of the agreement ($49,139) multiplied by the percentage of
time spent on the OJP grant-funded project (62.5 percent). Therefore, we
are questioning the difference of $7,973 as unallowable costs.

     In sum, we are questioning $51,488 in contract costs. This consists of
$5,805 ($4,000 plus $1,805) in unsupported expenditures and $45,683
($37,710 plus $7,973) in unallowable expenditures as detailed above.

Non-personnel and Non-contract Expenditures

      To determine the accuracy and allowability of non-personnel and non-
contract costs charged to the grant, we reviewed a sample of
18 transactions, consisting of travel and supplies expenditures, totaling




       11
           We identified 16 transactions totaling $46,918 for grant-related services provided
by unapproved contractors. However, Epsilon did not request or receive reimbursement for
nine of the transactions totaling $9,208. Therefore, we are only questioning the seven that
were reimbursed, totaling $37,710.


                                            - 14 –

$91,472. We found $622 in unsupported costs. 12 We also identified a few
non-dollar related recordkeeping issues. Specifically, we found that one
transaction was inaccurately recorded in the general ledger as a travel
expenditure instead of as a contract expenditure. We also identified two
transactions for which Epsilon had recorded the wrong dates in its general
ledger. All of the remaining transactions were properly authorized,
accurately recorded in the general ledger, and adequately supported.

Budget Management and Control

      According to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the award amount. Requests for
transfers of funds between budget categories of over 10 percent must be
submitted to OJP for approval. We compared the amounts charged in each
of the budget categories to the approved budget amount for each budget
category. Although we observed the movement of dollars between budget
categories, none of the amounts exceeded 10 percent of the total budget
amount. Therefore, Epsilon was not required to obtain prior approval from
OJP for these transfers.

Grant Reporting

      The OJP Financial Guide states that two types of reports are to be
submitted by the grantee. Financial Status Reports (FSR) provide
information on monies spent and the unobligated amounts remaining in the
grant. Program progress reports provide information on the status of grant-
funded activities and other pertinent information.

Financial Status Reports

      According to the OJP Financial Guide, prior to October 1, 2009, FSRs
were to be submitted within 45 days of the end of the calendar quarter.
Beginning with the reporting period October 2009 through December 2009,
grantees are required to submit quarterly Federal Financial Reports within
30 days of the end of the calendar quarter. 13 The final FSR must be
submitted no later than 90 days following the end of the grant period.
Funds or future awards may be withheld if reports are not submitted or if

       12
           We identified three transactions totaling $969 that were not properly supported
with original receipts or other documentation. However, Epsilon did not request or receive
reimbursement for one of the transactions totaling $347. Therefore, we are only questioning
the $622 that was reimbursed.
       13
            For consistency purposes, we use the term “FSR” to refer to both types of reports.


                                             - 15 –

reports are submitted late. We reviewed all 10 of the FSRs submitted during
the award. As shown in Table 7, Epsilon submitted 4 of the 10 reports from
2 to 40 days late.

       TABLE 7. TIMELINESS OF FINANCIAL STATUS REPORTS

     RPT                                              DATE         DAYS
     NO.      REPORT PERIOD              DUE DATE   SUBMITTED      LATE
      1     10/01/07 – 12/31/07          02/14/08   12/18/07         0
      2     01/01/08 – 03/31/08          05/15/08   05/19/08         4
      3     04/01/08 – 06-30/08          08/14/08   07/18/08         0
      4     07/01/08 - 09/30/08          11/14/08   11/24/08        10
      5     10/01/08 – 12/31/08          02/14/09   02/11/09         0
      6     01/01/09 – 03/31/09          05/15/09   04/29/09         0
      7     04/01/09 – 06/30/09          08/14/09   08/14/09         0
      8     07/01/09 – 09/30/09          11/14/09   11/16/09         2
      9     10/01/09 – 12/31/09          01/30/10   03/11/10        40
      10    01/01/10 – 03/31/10          06/29/10   04/12/10         0
    Source: Office of Justice Programs

       We also compared the grant-related expenditures reflected on the
FSRs to Epsilon’s accounting records. Through our review of Epsilon’s
records, we determined that Epsilon’s general ledger included grant-related
expenditures for which Epsilon did not request or receive reimbursement.
Further, the general ledger did not include any grant-related fringe benefit
or rent and utilities expenditures. Therefore, the FSRs did not accurately
reflect grant-related expenditures as recorded in Epsilon’s official accounting
system. Instead, we determined that Epsilon prepared the FSRs based on
the separately maintained spreadsheet used for submitting its drawdown
requests. The following table shows the grant-related expenditures as
reported on Epsilon’s FSRs, official accounting records, and separately
maintained spreadsheet.




                                         - 16 –

         TABLE 8. ACCURACY OF FINANCIAL STATUS REPORTS

                                           EXPENDITURES
             FSR REPORT                                 EXPENDITURES
   FSR                        EXPENSES PER      PER
             PERIOD END                                 PER GENERAL
   NO.                             FSR      DRAWDOWN
                 DATE                                      LEDGER
                                             REQUESTS
    1      12/31/2007          $39,310.36   $46,706.20   $50,255.02
    2      03/31/2008           69,270.20    61,874.36    59,421.71
    3      06/30/2008          168,890.44   168,890.45   139,817.08
    4      09/30/2008          198,353.65   198,353.64   158,187.05
    5      12/31/2008          105,079.64   105,079.64   128,889.60
    6      03/31/2009          100,677.36   100,677.36   112,092.97
    7      06/30/2009          117,189.30   117,189.30    87,556.12
    8      09/30/2009          118,054.70   118,054.70   132,928.48
    9      12/31/2009           39,674.23    39,674.23    55,010.64
   10      03/31/2010            7,080.12     7,080.12    15,921.39
  not reimbursed due to award maximum         4,457.09
            Total             $963,580.00 $968,037.09 $940,080.06
 Source: Office of Justice Programs and Epsilon Lambda Electronics Corporation

Progress Reports

      According to the OJP Financial Guide, Categorical Assistance Progress
Reports are due semiannually on January 30 and July 30 for the life of the
award. We reviewed the six progress reports submitted during the award
and found that two of the reports were not submitted by OJP’s established
deadline. However, we are not taking issue with the timeliness of these
report submissions because the reports were only 1 day late.

       As for the content of the progress reporting, we found that the reports
did not include a comparison of actual accomplishments to the objectives
established for the period. Instead, the reports included detailed,
cumulative technical results of work performed during the reporting period.
In our judgment, the reports provided adequate information to determine
the status of the tasks planned for the period. The progress reports did
identify circumstances that resulted in Epsilon’s decision to change the
design approach. However, no documentation was available to show that
Epsilon formally requested OJP’s approval to change the design approach.

Compliance with Cooperative Agreement Requirements

     We reviewed the special conditions of the grant award and identified
several key requirements, such as the grantee’s agreement to: (1) have an
independent financial and compliance audit performed, (2) act jointly with



                                        - 17 –

NIJ in determining research design, and (3) submit progress reports and
FSRs in a timely manner. As previously mentioned, the grantee did not have
the required independent audit performed. We also found that Epsilon did
not act jointly with NIJ in the determination of changing the research design.
Moreover, we found the grantee submitted the required progress reports and
FSRs, although four FSRs were submitted late. All of these matters are
discussed in detail in the appropriate sections of this report.

Program Performance and Accomplishments

       According to the award documentation, the goal of the award was to
develop an anti-terrorism technology capable of remotely detecting
concealed weapons, such as handguns and knives, as well as explosive
devices such as suicide bomb belts. Epsilon had previously conducted
experiments utilizing three-dimensional 77 GHz radars that demonstrated
the ability of millimeter wave radars to detect objects concealed on human
subjects. However, the experiments also demonstrated that the radar
images of the detected objects would require much improvement to reliably
classify objects as weapons or as non-threatening objects. Therefore,
Epsilon proposed to develop a radar sensor at 94 GHz to achieve the very
high resolution necessary to realize the grant objectives. Epsilon proposed
to partner with Northrop Grumman to develop the very sophisticated signal
processing methods necessary to complete the concealed weapons detection
sensor.

       The system was to be developed in two phases. During Phase I,
Epsilon was supposed to demonstrate the system technology in a test bed
environment and develop an extensive collection of radar images. During
Phase II, Epsilon was to implement the technology in a prototype sensor
that met NIJ’s objectives that incorporated threat assessment algorithms to
reliably identify threat objects. Through our review of Epsilon’s progress
reports and interviews with Epsilon officials, we determined that Epsilon did
not accomplish the objectives of developing and demonstrating a radar
sensor prototype or collecting extensive object signatures. We noted that
Epsilon changed the design approach mid-way through the project and
provided only a design, not a prototype, for a sensor.

       The award documentation reported that substantial federal
involvement in the project was contemplated and identified various methods
for NIJ to monitor the technical elements of the project, including periodic
telephone contacts, review of interim reports, and site visits. The award
documentation specified that NIJ would conduct a review of Epsilon’s
activities at least monthly. However, according to the terms and conditions



                                    - 18 –

of the agreement, NIJ’s monitoring of Epsilon was expected to occur several
times a month.

      Due to the highly technical nature of the project, we requested the NIJ
Program Manager to provide us with the results of NIJ's oversight and
monitoring of the technical elements of the project. In response, the NIJ
Program Manager reported having telephone conversations with Epsilon on
several occasions. The Program Manager also advised us that Epsilon had
presented its research and responded to subsequent questions at a
technology working group meeting. However, NIJ did not maintain any
documentation supporting its oversight of Epsilon.

      The NIJ Program Manager agreed that Epsilon did not meet the
program objectives but also opined that not meeting program objectives is
often the nature of research. The NIJ Program Manager also stated that
Epsilon’s progress reports had been received and approved. As previously
mentioned, Epsilon did submit its progress reports that explained it was
changing its design approach. However, we found that OJP was often
untimely in its review of the progress reports – ranging from 23 to 357 days
to approve the reports.

       In response to another inquiry, an NIJ official provided further insight
into the grantee’s attempt to meet the program objectives. Specifically, this
official explained that millimeter wave-based sensors afford one of the most
promising approaches to being able to detect at a safe distance weapons
concealed under clothing. The official further stated that success has been
achieved in developing such sensors to function with short-range distances
but the ongoing challenge is to develop these types of sensors that are able
to detect concealed weapons at longer distances. According to this official,
Epsilon made progress in this ongoing area of research that will prove
valuable in future endeavors to develop long-range millimeter wave-based
sensors.

       Regardless of the reported progress by Epsilon in the ongoing research
of millimeter wave-based sensors, there is a notable difference between
delivering an actual prototype and developing only a design. We are
concerned that Epsilon did not receive official, documented NIJ approval
prior to this deviation from the project design approach. We are also
concerned about the lack of evidence to support NIJ’s project oversight and
the untimely review of the submitted progress reports that discussed the
revised project design.




                                    - 19 –

Monitoring Contractors

      According to the OJP Financial Guide, direct recipients of federal
awards should ensure that monitoring of organizations under contract to
them is performed in a manner that will ensure compliance with their overall
financial management requirements.

      Epsilon contracted with individuals and organizations to obtain
professional services, supplies, and the system technology necessary to
develop the concealed weapons detection sensor. The largest portion of the
contract expenditures was for the system technology development.
Epsilon’s principal contractor performed this work at its own facility and
periodically reported its results and progress to Epsilon. The remaining
professional services were performed at Epsilon’s facility and the work was
directed and supervised by Epsilon’s Program Manager and Chief Engineer.
Epsilon also obtained consulting services from an individual through a
purchase order. The remaining contracts were for components necessary for
performing tests related to the development of a radar sensor.

       According to the Program Manager, Epsilon relied on the reputation of
its principal contractor for the system technology development as being a
major corporation and a predominant government contractor, which
provided assurance to Epsilon that the contractor's financial management
system and processes and procedures for administering and adhering to the
terms and conditions of the contract were adequate. The Program Manager
stated that he and the Chief Engineer conducted bi-monthly teleconferences
with the principal contractor to discuss the principal contractor’s results and
progress and to ensure the terms and conditions of the contract were being
met. However, the Program Manager told us there was no documentation of
these verbal reviews of the principal contractor’s performance.

      Although the monitoring was unstructured, Epsilon’s principal
contractor was required to submit semi-annual reports detailing the work
performed and results achieved. We requested copies of these reports.
However, Epsilon was not able to provide copies of the contractor’s semi­
annual report for the reporting period ending December 31, 2009 or the
contractor’s final report for the period ending March 31, 2010. Because
Epsilon could not provide all of the contractor's semi-annual reports, we
cannot completely assess the effectiveness of Epsilon’s monitoring of this
contractor.

      We believe that Epsilon did not maintain adequate documentation,
such as reported progress on accomplishments, to assess its principal
contractor’s performance under the award. Further, the contractor’s reports


                                    - 20 –

we reviewed did not include any cost information or comparison of
accomplishments to project goals. In addition, we do not believe that
Epsilon’s monitoring of the principal contractor’s performance as
documented in the progress reports submitted to OJP is adequate for
evaluating contractor performance.

      Based on our review of the timesheets provided by Epsilon for its other
contractors, we determined the services were provided in a timely manner
and approved by Epsilon’s President. Because Epsilon monitored these
contractors’ performance through direct supervision by Epsilon’s Chief
Engineer and Program Manager, we determined that it was not necessary to
perform additional testing of the effectiveness of Epsilon’s monitoring of the
contractors.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate.

Recommendations

      We recommend that OJP:

   1. Ensure that Epsilon undergoes the required, independent financial and
      compliance audits for FY 2008 and FY 2009.

   2. Ensure that Epsilon implements proper internal controls, including the
      development of revised financial policies before the grantee receives
      any additional funds.

   3. Remedy the $2,852 in unsupported questioned costs related to
      Epsilon’s inability to support its drawdown requests of $2,230 and the
      reimbursement of non-personnel and non-contract expenditures for
      which Epsilon could not provide supporting documentation totaling
      $622.

   4. Remedy the $124,577 in unallowable questioned costs that were used
      to pay the salary ($114,579) and fringe benefit costs ($9,998) of
      unapproved personnel or the higher than allowed salary and fringe
      benefit costs of authorized personnel.




                                    - 21 –

5. Remedy the $5,805 in unsupported questioned costs that were used to
   procure contract services for which Epsilon could not produce adequate
   documentation.

6. Remedy the $45,683 in unallowable questioned costs that were used
   to procure contract services from contractors that were not included in
   the approved budget ($37,710) and for contract cost savings that
   were not passed on to OJP ($7,973).

7. Ensure that Epsilon submits a revised, final Federal Financial Report
   that accurately reflects grant-related expenditures as recorded in
   Epsilon’s official accounting system.

8. Review Epsilon’s submitted progress reports related to the project
   design changes and ensure that the grant file contains the necessary
   approvals for the changes in project scope.




                                 - 22 –

                                                                 APPENDIX I



           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the cooperative agreement were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the cooperative agreement, and
to determine program performance and accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards and included such tests as were
considered necessary to accomplish our objectives. Those standards
require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

       Our audit concentrated on, but was not limited to, the inception of the
agreement on October 1, 2007, through March 31, 2010. This was an audit
of NIJ grant number 2007-RG-CX-K181, for which Epsilon was awarded a
total of $963,580. In conducting our audit, we reviewed FSRs and progress
reports as well as performed sample testing in award expenditures, including
salary and fringe benefit costs. Our testing was conducted by judgmentally
selecting a sample of expenditures, along with a review of internal controls
and procedures for the grant that we audited. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the grant
reviewed, such as dollar amounts, expenditure category, or risk. This
non-statistical sample design does not allow for projection of the test results
to all grant expenditures or internal controls and procedures. In total,
Epsilon had drawn down $963,580 and recorded grant-related costs totaling
$968,037 as of May 19, 2010. We tested 42 invoices, which totaled
$225,397. In addition, we tested $53,919 out of a total of $412,721 in
salary costs and $6,834 out of $56,973 in total fringe benefits costs.

      We tested compliance with what we consider to be the most important
conditions of the cooperative agreement. Unless otherwise stated in our
report, the criteria we audit against are contained in the OJP Financial Guide
and the award documents. We reviewed Epsilon’s grant activities and
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) grant expenditures, including personnel costs;
(4) budget management and control; (5) financial status and progress
reports; (6) grant requirements; (7) program performance and
accomplishments; and (8) monitoring of contractors. We determined that
matching costs, accountable property, indirect costs, program income, and


                                    - 23 –

monitoring of sub-grantees were not applicable to this grant. Although
Epsilon had expended more than $500,000 in federal funds during 2008 and
2009, it did not have a financial and compliance audit conducted during
those years. We performed limited testing of source documents to assess
the timeliness and accuracy of FSRs, reimbursement requests, expenditures,
and progress reports; evaluated performance to grant objectives; and
reviewed the grant-related internal controls over the financial management
system. We tested invoices associated with transactions shown in Epsilon’s
general ledger as of October 19, 2010. However, we did not test the
reliability of the financial management system as a whole and reliance on
computer-based data was not significant to our objectives.




                                  - 24 –

                                                                    APPENDIX II



             SCHEDULE OF DOLLAR-RELATED FINDINGS

                                                                     AMOUNT           PAGE
QUESTIONED COSTS:

Unsupported
      Drawdown Requests                                               $2,230             8
      Contract Expenditures                                            5,805            14
      Non-Personnel and Non-Contract Expenditures                        622            15
      Total Unsupported                                               $8,657

 Unallowable
       Personnel Expenditures                                      $124,577             13
       Contract Expenditures                                         45,683             14
       Total Unallowable                                           $170,260

 TOTAL NET DOLLAR-RELATED FINDINGS                                $178,917


 Questioned Costs are expenditures that do not comply with legal, regulatory, or contractual
 requirements; are not supported by adequate documentation at the time of the audit; or
 are unnecessary or unreasonable.




                                           - 25 –

                                                                                                            APPENDIX III



                                      AUDITEE RESPONSE




                                                                        ~ epsilon lambda
Caro l S. Taraszka
Regional Audit Manager
Chicago Regional Audit Office
Offic e of the Inspector Genera l
U.S. Department of Justice
500 West Mad ison Street, Suite 11 2 1
Chicago.I L 6066 1
Cam I~ S. Ta ra s~K~(Q}!!ZifLo.igQY

CC: Linda J. Taylor, Lead Auditor
       Linda.Taylor21{1'usdo j.gov
       Fax: 202-353-2524

This letter is in response to the draft audit report dated September 30, 20 II , regarding N IJ grant 2007·RG-CX-
K 181 . The draft audit report contained 8 recommendations and $178.917 in questioned costs, which are addressed
below.


As s ummary of Epsilon Lambda's position in regards 10 the contract and subsequent review, the company concurs
that certain act ions were not taken over the contract period due to an incomplete understanding of contract terms,
and the company recommends two main act ions to correct these oversights and close out the referenced grant, as
we ll as two other actions to be undertaken before any additional grant funds are awarded to grantee Epsi lon Lambda
Electronics. These actions will address all 8 of the draft audit report recommendations.


The two currenl and immediate actions the company recommends be taken are:


     •    The company prepare and submit for OJP approval, one or ma rc Grant Adjustment Not ice(s), along with
          re lated revised budgets, sufficient to detail the change in scope, technical approach, and direction of
          financial resources to the contract.
     •    The company prepare and submit for OJP approval, a final Federal Financial report that reflects the above
          reference Gra nd Adjustment Notice(s) and Ihe company official accounting system.


In addition 10 the above current and immediate actions to be taken, the company recommends the followin g two
actions be undertaken as conditions to the company receiving any additional NIJ grant funds:


          The company complete and submit an independent financial review for the most recent appropriate fiscal
          year, prior to any new grant fund s being awarded by NIJ to grantee Epsi lon Lambda Electronics.
          The company demonstrate, and OJP ensure, that a ll proper internal controls. including rcv ised financial
          policies, are implemented prior to any new grant funds be awarded by NIJ to grantee Epsilon Lambda
          Electron ics.
                                                                                             epsilon lambda electronics corp .
                                                                                              396 fenton lone, sui te 601
                                                                                              west Chicogo, Il li no is 60185
                                                                                              phone 630/ 293-7118 1
                                                                                              fox    630/293-5809
                                                                                              www.epsilonlambda.com




                                                      - 26 –

The two immediate actions, and two conditio nal actions. will address the 8 draft audi t recom mendations in detail as
follows :
     •      Recommendmion I - The company recommends thllt 01P accept alld approve lh:Jllhe audit un<lcrtilken by
            lhe Oftiee oflhe Inspector General as compleled. and that this audi t will act as a sullicicn t replacc ment for
            a posI-finan<:ial rev iew of the 2008-2009 years. TIle company l't.Commends that any subsequent grant funds
                                                                              '
            be conditional upon a complete independent rcv icw o f the company's mOST recent app licablt.: fisc:!1 year be
            undertaken a nd sUblllincd to OJP.
     •      Recommendation 2 - The company concurs Ihal prior TO any add itional gra nt fun ds being provided to
            Epsilon Lambda Electron ics. the company lIl ust demonstrate tha t a ll proper inte rn al comro ls, incl uding
            revised finan cial policies, are imp lemented.
    •       Recommendation 3 - The company recommends thaI the company submit, and 01 P approve, one or more
            Grant Adj uslrne nl Notice(s). and related grant budgets. sullicientto deta il the chanSt: in seop.:. technical
            approach, and d irection of financ ia l resources to the comrac t. The amount 52,852 in unsupponed costs will
            be withdrawn. and off$Ct with supported costs thaI prcviousl y cxceeded the contrac t. See foot note #4 , that
            indicates the conlpany incurred to tal costs o f S I ,039,8K8 .. an a mo unt sulfident to wi th draw Ihe
            unsupported costs, and sl ill be with in Ihe contract limits.
    •       Recommendation 4 - The com pany recomme nds Ihatlhe company submit for OJP approval, one or more
            Grant Adjustmen t Notice(s). and relatcd gran t budgets. suffi cient 10 deta il the change in scope. t.::chnical
            approach. and d irection offinanc i;d resources to the contr.lCl. The GAN and re lated budget will dctai l how
            the amount $ 124.577 was spent in d ifferent cost categories than Ihost: original proposed in the grant budget.
            and why these movements in expense categories were required to mtt t the technical approach.
    •       I~ecommcnd at inn   5 - Th", company recommends Ihm Ihe compan y submi t for OJP approval. one or more
            Grant Adjustment Noticc(s), and related grant budge ts, su fli cient 10 detailtht! change in scope, techn ical
            approach. and direction o f financia l resources to the contract. T he $5.805 in unsupported costs will be
            wi thdrawn. and offset wi th previollsly su pported COSts in amount that exceeded the contract. Sec fOOl note
            #4, that indicates the company incurred total costs of$1.039.888. an amount sufficient 10 withdra w the
            uns upported costs and st ill be withi n tlie contract limits.
    •       Reco mmcndatlon 6 - The company rL'Commends that Ihe company submit forOJP approval. one or more
            Grant Adjustment Notice{s), and related grant budgets. s ufficient to detail the change in scope, technical
            approach , and di rection offinancia! n::sources to the contract. The GAN and budget wH I detail how the
            amount S45.6K3 was spent in d ifferent cost categories. and UlKkr d iffere nt subcontracts. than those original
            proposed in the grant budge t, and why these movements in expense categories and          !iubcontraet~    were
            requ ired to meel the technical :tpproach.
    •       Recommendation 7 - The company concurs Ihal Epsilon Lambda should submit for OJP approval , a final
            Federal Fina ncial report that refk-cls the above rc fcre nced Grnnd Adjustme nt Notice(s) and rt:illl.-d budS",t
            changes. and modificat ions to the company officia l accounling system.




                                                                                                                                2



                                                   - 27 –

    •   Recommendation 8 - The company recommends that the company submit for OJP approval, one or more
        Grant Adjustment Notice(s), and related grant budgets, sumc ient to detai l the change in scope, techn ical
        approach, and direction of financial resources to the contract. OJP whould confirm that these GAN's are
        consistent with the company ' s submitted progress reports.




Respectively Submined




Robert M. Knox,                                                                                October 19, 20 II
President, Epsilon Lambda Electronics




                                                                                                                      3



                                              - 28 –

                                                                                          APPENDIX IV



      OFFICE OF JUSTICE PROGRAMS RESPONSE


                                                     u.s. Department of Justice
                                                     Office of Justice Programs

                                                     Office of Audit. Assessment. and Management


                                                     W"" /UOUtOfl. D.C. MH I



'OCT 2 8 2011'

 MEMORANDUM TO:               Carol S. Taraszka
                              Regional Audit Manager
                              Chicago Regional Audit Office
                              Office of the Inspector General

 FROM:                         Maureen A{lenn:berg
                               Director   Y'J.;'l:7\ ~d:-A
 SUBJECT:                      Response to the Draft Audit Report, Office 0/Jft:e Programs.
                               National InstitUle ofJustice. Cooperative Agreemem Awarded 10
                               Epsilon Lambda Electronics Corporatio n. WeSI Chicago. Illinois

 This memorandum is in response to your correspondence, dated September 30, 201 t,
 transmitting the subject draft audit report for the Epsilon Lambda Electronics Corporation
 (Epsilon). We consider the subject report resolved and request written acceptance of this action
 from your office.

 The report contains eight recommendations Iilld $178,917 in questioned costs. The following is
 the Office of Justice Programs' (OJP) analysis of the draft audit report recommendations. For
 ea~e of review, the recommendations are restated in bold and are followed by our response.


 1.      Ensure that Epsilon undergoes the required. independent financial a nd compliance
         audits for fiscal year 2008 and rucal ycar 2009.

         We agree with the recommendation. We will coordinate with Epsilon to obtain a copy of
         fiscals year 2008 and 2009 audit reJXlrlS. once oompleted. In addjtion, we will request
         thaI Epsilon provide a oopy of procedures, developed and implemented, to ensure that aU
         required future audits are perfonned in a timely manner.

 2.      Ensure that Epsilon implements proper internal controls, including the
         de\'elopment of revised financial policies before the grantee rece ives aDY additional
         funds.

         We agree with the recommendation. We will coordinate with Epsilon to obtain a copy of
         procedUres, developed and implemented, to ensure that Epsilon maintains internal
         controls which are adequate to administer Federal grant foods.




                                             - 29 –

3.   Remed y the $2,852 in unsupported questioned costs related to Epsilon's ina bility to
     support its drawdown requests of 52,230 and the reimbursement of Don-personnel
     and non~contract cxpenditu res for which Epsilon could not provide supporting
     documentation totaling $622.

     We agree with the recommendation. We will coordinate with Epsilon to remedy the
     $2,852 in unapproved questioned costs related to drawdowr. requests totaling $2,230, and
     non-personnel and non-contract expenditures totaling $622, charged to cooperative
     agreement number 2007-RO·CX-K181. Ifadequate docwncntation cannot be provided,
     we will requesl lhat Epsilon return the funds to the U.s . Department of Justice (0 01), and
     submit a re vised final Federal Financial Report (FFR) for the agreement.

4.   Remedy the S I24,577 in unallowable questioned costs that were used to pay the
     salary (S114,579) and frin ge benefit costs (S9,998) of unllpproved pcrsonnel or the
     highcr than allowed salary and fringe benefit eost~ of authorized personnel.

     We agree with the recommendation. We will coordinate with Epsi lon to remedy the
     $124,577 in unallowable questioned costs relate<! to unallowable salary totaling
     $114,579, and fringe benefits costs totaling $9,998, charged to cooperative agreemellt
     number 2007-RG-CX-KI81. Ifadequate documentation cannot be provided, we wil l
     req uest that Epsilon return the funds to the OOJ, and submit a revised final FFR far the
     agreement.

5.   Remedy the 55,805 in unsupported questioned costs thllt were used to pro£ure
     contract services for which Epsilon could not produce adequate doeumentation.

     We agree with the re<:ammendation. We will coordinale with Epsilon to remedy the
     $5,805 in unsupported questioned costs related to contract services charged to
     coopemtive agreement number 2007-RG-CX·K I8 1. If adequate documentation cannot
     be provided, we will request that Epsilon return the funds to the DOJ, and submit a
     revised final FFR for the agreement.

6.   Remedy the S45,683 in unallowable questioned costs that were used to procure
     contract scrvices from contractors tbat were Dot includ~d the approved budget
     (S37,71O) and for contract cost savings that were not passed on to OIP (S7,973).

     We agree with the recommendation. We will coordinate with Epsilon to remedy the
     $45,683 in unallowable questioned contract services expenditures, and will request a fmal
     detennination from thc National lnstitutc of Justice (NU) regarding the allowability of
     contractor services not approved by Nil. Ifthe expendimres are detennined to be
     unallowable, we will request that Epsilon return the funds 10 the DOl, and submit a
     revised final FFR for the agreement.




                                            - 30 –

7.     Ensure that Epsilon submits a rcviscd, final Federal Financial Report tbat
       accurately reneets grant-related expenditures as reeorded in Epsilon's official
       accounting syst~m.

       We agree with the recommendation. We will coordinate with Epsilon to obtain a copy of
       a revised final FFR for cooperative agreement number 2007-RG-CX-K I81, which
       accurately reflects total cumulative Federal grant expenditures recorded in Epsilon's
       accounting system for the agreement.

8.     Review Epsilon's su bmitted progress reports related fo the project design changes
       and ensure that the grant file contains the nceessary approvals for the ehanges in
       project scope.

       We agree with the recommendation. We will coordinate with Epsilon to ensure that the
       necessary approvals from the Nil, related to changes in the project scope for cooperative
       agreement number 2007-RG-CX-KlSl, are properly documented in OJP's Grants
       Management System for the agreement.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffcry A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Diane Hughes
       Office Director, Office of Operations
       National Institute of Justice

       Frances Scott
       Program Manager
       National Institute of Justice

       Louise Duhamel, Ph.D.
       Acting Director, JMD Audit Liaison Group
       Internal Review and Evaluation Office

       OJP Executive Secretariat
       Control Number 20111743




                                               - 31 –

                                                                APPENDIX V



              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


    The OIG provided a draft of this audit report to Epsilon Lambda
Electronics Corporation (Epsilon) and the Office of Justice Programs (OJP).
Epsilon’s response is incorporated in Appendix III of this final report, and
OJP’s response is incorporated in Appendix IV of this final report. The
following provides the OIG analysis of the responses and summary of actions
necessary to close the report.

Recommendation Number:

1.	   Resolved. OJP concurred with our recommendation to ensure that
      Epsilon undergoes the required, independent financial and compliance
      audits for FY 2008 and FY 2009. Epsilon responded by proposing that
      this audit be considered sufficient in lieu of the independent financial
      and compliance audits for FY 2008 and FY 2009 and that an
      independent financial and compliance audit be completed on the most
      recent fiscal year prior to the awarding of any subsequent grant funds.
      Because this OIG audit only focused on one grant awarded to Epsilon
      and did not thoroughly examine all of Epsilon’s financial activities, we
      do not believe using our report in lieu of the requirement of having
      independent financial and compliance audits conducted for FY 2008
      and FY 2009 is appropriate. In its response, OJP stated that it will
      coordinate with Epsilon to obtain a copy of the FY 2008 and FY 2009
      audit reports, once completed, as well as request a copy of Epsilon’s
      procedures to ensure that all required future audits are performed in a
      timely manner.

      This recommendation can be closed when we receive a copy of the
      completed independent financial and compliance audits for FY 2008
      and FY 2009, as well as Epsilon’s procedures, once approved by OJP,
      for ensuring all required future audits are completed in a timely
      manner.

2.	   Resolved. Both Epsilon and OJP concurred with our recommendation
      to ensure that Epsilon implements proper internal controls, including
      the development of revised financial policies, before the grantee
      receives any additional funds. OJP stated in its response that it will
      coordinate with Epsilon to obtain a copy of procedures, developed and
      implemented, to ensure that Epsilon maintains internal controls that
      are adequate to administer federal grant funds.



                                    - 32 –

      This recommendation can be closed when we receive a copy of the
      implemented procedures, once approved by OJP, that ensure Epsilon
      maintains proper internal controls, including revised financial policies
      that are adequate to administer federal grant funds.

3.	   Resolved. Both Epsilon and OJP concurred with our recommendation
      to remedy the $2,852 in unsupported questioned costs related to
      Epsilon’s inability to support its drawdown requests of $2,230 and the
      reimbursement of non-personnel and non-contract expenditures for
      which Epsilon could not provide supporting documentation totaling
      $622. OJP stated in its response that it will coordinate with Epsilon to
      remedy the $2,852. OJP further stated that if adequate
      documentation cannot be provided, OJP will request that Epsilon return
      the funds to DOJ and submit a revised final Federal Financial Report.

      This recommendation can be closed when we receive evidence that the
      $2,852 in questioned costs have been appropriately remedied.

4.	   Resolved. Both Epsilon and OJP concurred with our recommendation
      to remedy the $124,577 in unallowable questioned costs that were
      used to pay the salary ($114,579) and fringe benefit costs ($9,998) of
      unapproved personnel or the higher than allowed salary and fringe
      benefit costs of authorized personnel. OJP stated in its response that
      it will coordinate with Epsilon to remedy the $124,577 in unallowable
      questioned costs. OJP further stated that if adequate documentation
      cannot be provided, OJP will request that Epsilon return the funds to
      DOJ and submit a revised final Federal Financial Report.

      This recommendation can be closed when we receive evidence that the
      $124,577 in questioned costs have been appropriately remedied.

5.	   Resolved. Both Epsilon and OJP concurred with our recommendation
      to remedy the $5,805 in unsupported questioned costs that were used
      to procure contract services for which Epsilon could not produce
      adequate documentation. OJP stated in its response that it will
      coordinate with Epsilon to remedy the $5,805 in unsupported
      questioned costs. OJP further stated that if adequate documentation
      cannot be provided, OJP will request that Epsilon return the funds to
      DOJ and submit a revised final Federal Financial Report.

      This recommendation can be closed when we receive evidence that the
      $5,805 in questioned costs have been appropriately remedied.



                                    - 33 –

6.	   Resolved. Both Epsilon and OJP concurred with our recommendation
      to remedy the $45,683 in unallowable questioned costs that were used
      to procure contract services from contractors that were not included in
      the approved budget ($37,710) and for contract cost savings that
      were not passed on to OJP ($7,973). OJP stated in its response that it
      will coordinate with Epsilon to remedy the $45,683 in unallowable
      questioned contract services expenditures. OJP further stated that it
      will request a final determination from the National Institute of Justice
      (NIJ) regarding the allowability of the contractor services not included
      in the approved budget. OJP stated that if the expenditures are
      determined to be unallowable, OJP will request that Epsilon return the
      funds to DOJ and submit a revised final Federal Financial Report.

      This recommendation can be closed when we receive evidence that the
      $45,683 in questioned costs have been appropriately remedied.

7.	   Resolved. Both Epsilon and OJP concurred with our recommendation
      to ensure that Epsilon submits a revised, final Federal Financial report
      that accurately reflects grant-related expenditures as recorded in
      Epsilon’s official accounting system. OJP stated in its response that it
      will coordinate with Epsilon to obtain a copy of a revised, final Federal
      Financial Report, which accurately reflects total cumulative federal
      grant expenditures recorded in Epsilon’s accounting system for the
      grant under review.

      This recommendation can be closed when we receive a copy of the
      revised, final Federal Financial Report that accurately reflects grant-
      related expenditures as recorded in Epsilon’s official accounting
      system.

8.	   Resolved. Both Epsilon and OJP concurred with our recommendation
      to review Epsilon’s submitted progress reports related to the project
      design changes and ensure that the grant file contains the necessary
      approvals for the changes in project scope. OJP stated in its response
      that it will coordinate with Epsilon to ensure that the necessary
      approvals from NIJ for the changes in project scope are properly
      documented in OJP’s Grants Management System.

      This recommendation can be closed when we receive evidence of the
      necessary approvals from NIJ for the changes in project scope and
      that those approvals are contained in the grant file.




                                    - 34 –

